SBA REGULATIONS RELATING TO 

 UNCONDITIONAL OWNERSHIP 

  REQUIREMENTS FOR INDIAN 

          TRIBES 



          Report Number: 10-07 

      Date Issued: January 25,2010 

              U.S. Small Business Administration
              Office of Inspector General
                                                                                 Memorandum
     To : 	   Joseph G. Jordan                                                                                 Date:     January 25,2010
              Associate Administrator for Government
              Contracting and Business Development
              lsi Original Signed
  From: 	     Debra S. Ritt 

              Assistant Inspector General for Auditing 


Subject: 	    Audit of SBA Regulations Relating to Unconditional Ownership Requirements for
              Indian Tribes, Report No. 10-07

              During our review of Alaska Native Technologies, LLC (ANT), we determined
              that SBA' s business development regulations do not clearly implement the Small
              Business Act's (Act) statutory requirement that firms owned by Indian tribes be
              unconditionally owned. We also determined that SBA's regulatory definition of
              unconditional ownership appears inconsistent with restrictions discussed in the
              legislative history of the Act. We are notifying you of these issues so that you can
              take immediate action.

              To participate in the 8(a) program, the Act requires that small business concerns
              be socially and economically disadvantaged. Section 8(a)(4)(A)(ii) of the Act
              defines a socially and economically disadvantaged small business concern as one
              that is at least 51 percent unconditionally owned by, among others, an
              economically disadvantaged Indian tribe. 1 The Act does not define unconditional
              ownership. However, SBA' s regulations implementing the Act define
              unconditional ownership as ownership that is not subject to any arrangement that
              removes present or future rights of the ownership interest through a mechanism
              the disadvantaged individual or entity does not control. 2 The purpose of
              unconditional ownership is to ensure that disadvantaged owners are the primary
              beneficiaries of the 8(a) program.




              1    15 u.s.c. § 637(a)(4)(i)(II).
              2	   l3 CFR 124.3 specifically prohibits conditions precedent, conditions subsequent, executory agreements, voting trusts, restrictions on
                   voting rights, or other arrangements that cause or potentially cause ownership benefits to go to other than the disadvantaged
                   individuals upon whom eligibility was based.
Under SBA's regulations Indian tribes are not subject to the unconditional
ownership requirement, 3 but instead, must comply with the "special ownership
requirements" of 13 CFR 124.l09. Those special ownership requirements state
the tribe must own 51 percent or more of the concern, but do not seem to contain
an unconditional ownership requirement. 4 Notwithstanding the Act's
unconditional ownership requirement, SBA's regulations do not appear to mandate
that an Indian tribe's ownership be unconditional.

Additionally, SBA' s regulations have defined unconditional ownership
inconsistent with the Act's legislative history. The legislative history of the
unconditional ownership requirement only addresses arms-length 5 transactions
with legitimate financing institutions.6 The regulatory definition, however, allows
the "pledge or encumbrance of stock or other ownership interest as collateral,
including seller financed transactions." These pledges or encumbrances must only
follow the undefined "normal commercial practices," with the owner retaining
control of its ownership interest. 7 SBA' s regulatory definition, with its reliance on
the undefined "normal commercial practices" and permissiveness toward seller
financed transactions invites program abuse.

In ANT' s case, the 8(a) firm was started with [FOIAex. 4Jin goodwill8 representing
the value of the expertise and contacts of a non-disadvantaged individual (NDI).
Prior to ANT's existence, the goodwill was reportedly a self-valued 9 intangible
asset of a company owned by the NDI. [FOIA ex. 3]

                            The NDl's company contributed goodwill worth
[FOIA ex.4Jto ANT. The remaining goodwill, valued at [FOIA ex. 4] was sold to an
Indian tribe that consequently contributed the goodwill to the formation of ANT.
The parties agreed to share ownership of ANT, with the tribe owning 51 percent
and the NDl's company owning the remaining 49 percent. No cash was
contributed in the formation of the 8(a) firm, and a Certified Public Accountant
has yet to recognize the [FOIA ex. 4Jin goodwill on ANT' s audited financial
statements.

Choosing not to use a financial institution, the tribe opted to use seller-financing to
pay for its [FOIA ex. 4] purchase of goodwill. To settle the debt, the seller (the NDl's

3 l3 CFR 124.105. 

4 l3 CFR 124.109(c)(3). 

5 A transaction negotiated by unrelated parties, each acting in his or her own self interest; the basis for a fair market value 

   determination.
6 The conference committee di scussed the relationship between financing and unconditional ownership in House Conference Report
  100-1070 (October 7, 1988). Congress amended the statute through Public Law 101-37, effective June 15, 1989. The 1989 revisions
  added the word "unconditional" to correct an omission in the 1988 statute. The legislative hi story describes unconditional ownership
  as critical to Congressional intent regarding ownership of a firm. 135 CongoRec. S4489-01 , S4490 (April 19, 1989).
7 l3 CFR 124.3.

8 Goodwi ll is the advantage of having established a business. It has no value basis unless it is purchased and generally is the
  difference between the purchase price and the fair market value of the assets acquired.
9 The goodwill was valued by the NDI and the Indian Tribe that owns 51% of ANT.




                                                                  2

company) required the tribe to (1) pay 50 percent of its share of ANT's profits to
the seller, and (2) pledge its 51-percent ownership interest in ANT to secure its
obligation. This effectively reduced the tribe's share of ANT's profits to
25 percent, while the NDl's company received 75 percent. Notwithstanding the
pledge of its ownership interest, the tribe retained the 51-percent ownership
required by SBA regulations. Despite the tribe's 51-percent ownership, the NDl's
company was the primary beneficiary of the program. Even if SBA' s regulations
required the Indian tribes' ownership to be unconditional, the regulatory definition
of unconditional ownership would probably have allowed the pledging of the
tribe's ownership interest to secure purchase of the "goodwill." This pledge in the
seller-financed transaction discussed above facilitated the re-direction of the 8( a)
program's primary benefits from the tribe to the NDI. Transactions that encumber
an ownership interest occurring outside of arms-length transactions with legitimate
financing institutions invite program abuse similar to the abuse that occurred with
ANT.

In fiscal year 2008, 39 Indian tribes participated in the 8(a) program. Those tribes
owned 54 participants, 31 of which received 8( a) obligations totaling
$129.5 million. Without the unconditional ownership requirement, non­
disadvantaged individuals or entities can reap the primary benefits from
contracting preferences that allow tribally-owned firms to receive sole-source
contracts of any value. Likewise, excessive flexibility regarding an owner's ability
to pledge or encumber an ownership interest allows capital arrangements that steer
the benefits of the 8(a) program to non-disadvantaged individuals or entities.

RECOMMENDATIONS

We recommend that the Associate Administrator for Government Contracting and
Business Development:

1. 	 Revise Title 13 CFR, Part 124 to mandate that tribally-owned firms be
     unconditionally owned as required by the Small Business Act.

2. 	 Study the effect of allowing seller-financed transactions to encumber
     ownership shares, and if appropriate, revise Title 13 CFR, Part 124 to provide
     that a stock or other ownership interest that is pledged or encumbered is not
     unconditionally owned unless the pledge or encumbrance occurs within an
     arms-length transaction with a legitimate financial institution.




                                         3

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On November 19, 2009, we provided a draft of the report to SBA' s Office of
Government Contracting and Business Development for comment. On
January 5, 2010, the Associate Administrator for Government Contracting and
Business Development provided written comments, which are contained in their
entirety in Appendix I.

We consider the actions proposed by management to be non-responsive to
recommendation 1. Because management expressed that it needed to study the
effect of allowing seller-financed transactions, we consider management's
comments to be responsive to recommendation 2 and have revised the
recommendation accordingly. The Agency's comments and our evaluation of
them are summarized below.

Management Comments

Recommendation 1

Management stated that it will review/evaluate public comments and feedback
received from listening tours and tribal consultations regarding proposed rule
changes to determine whether to revise Title 13 of the Code of Federal
Regulations, Part 124 to mandate that tribally-owned firms be unconditionally
owned.

OIG Response

We believe that an evaluation of public comments is irrelevant when Agency
regulations are not consistent with the enabling statute. In addition, if the legally
mandated requirement for unconditional ownership is not being enforced for one
tribally-owned 8(a) firm, it is not being enforced for other tribally-owned firms.
Our report clearly shows that the inconsistency exists, and that it invites program
abuse. Therefore, the Agency should revise its regulations to ensure that the
regulations are consistent with the Small Business Act.

Recommendation 2

Management agreed that the pledge or encumbrance of ownership interest in an
8(a) firm should take place only through an arm's length transaction. However,
the Agency believed that requiring such transactions be conducted with legitimate
financial institutions would cripple an 8(a) firm's access to capital.


                                          4

OIG Response

Management did not address the concerns raised in our recommendation, but
indicated that it needed to study the issue. Accordingly, we revised the second
recommendation to include, as an alternative to immediately changing the
regulation, that the Agency study the effect of changing the definition of
unconditional ownership and then make any appropriate change to its regulations.
The study should examine the effect of allowing seller-financed transactions to
encumber ownership shares focusing, specifically on: (1) how many
disadvantaged individuals in the 8(a) Program have encumbered ownership
interests arising from their purchase of the 8( a) company or assets of the 8( a)
company, (2) what constitutes normal commercial practices for seller-financed
transactions, and (3) what, if anything, would be the effect on 8(a) participation
levels if disadvantaged individuals were only allowed to encumber or pledge their
shares in arms-length transactions with legitimate financial institutions. An
assessment of whether changing the regulation would affect program participation
should identify the availability of other SBA programs such as the 7(a) loan
guaranty program, to assist disadvantaged business owners as an alternative to
seller-financing of transactions.


ACTIONS REQUIRED

Based on your comments, we have revised recommendation 2 and request your
response on the attached SBA Form 1824, Recommendation Action Sheet within
30 days from the date of this report. Your response should identify the specific
action(s) taken or planned and the target date( s) for completion. Because you have
non-concurred with recommendation 1, we plan to refer the issue to the next
higher level of management for resolution, in accordance with Standard Operating
Procedure 20 35.

We appreciate the courtesies and cooperation of the Small Business
Administration during this review. If you have any questions concerning this
report, please call me at (202) 205_[FOIAex2]or Riccardo R. Buglisi, Director, Business
Development Programs Group, at (202) 205- [FOIAex.2]




                                          5

       APPENDIX I. MANAGEMENT COMMENTS 




  ~
       t:"'\.. Bl1$/~~ 

~                    \II
                                      U.S. SMALL BUSINESS ADMINISTRATION
,.•a                   •                       WASHI~GTOH.    D.C.   20416
  ~h.19S3 ..0(,....
    <"1ST""


           January 5, 2010

           Ms. Debra S. Ritt 

           Assistant Inspector General for Auditing 

           Office of Inspector General 

           U.S. Small Business Administration 

           Washington, DC 20416 


           Dear Ms. Ritt:
                                  ,
           Thank you for the opportunity to comment on the draft report issued November 19,2009,
           entitled, "SBA Regulations Relating to Unconditional Ownership Requirements for
           Indian Tribes." (Project No.: 9008).

           It is important to note that this draft report and subsequent recommendations - stating
           that "SBA's business development regulations do not clearly implement the Small
           Business Act's statutory requirement that firms owned by Indian tribes be
           unconditionally owned" - are based solely,upon a review of one firm (Alaska Native
           Technologies, LLC (ANT). We believe that the issues that surfaced as a result of a
           review conducted of ANT are isolated and are not indicative of the tribally-owned firms
           that participate in the 8(a) Program.

           However, SBA has undertaken a comprehensive review of the rules cove~ing a variety of
           areas of the 8(a) Program, including tribally-owned firms. Public comments are currently
           being sought regarding the best way to determine whether a tribe meets the criteria of
           being economically disadvantaged for the 8(a) program.

           In addition to seeking public comments, SBA will hold tribal consultation meetings
           which are intended to provide a forum in which interested parties can discuss their views
           on the issues impacting tribally-owned firms. These meetings will enable SBA to obtain
           the views of these stakeholders and obtain their input as it relates to tribal eligibility for
           8(a) certification and various approaches to the 8(a) Program regulations. The outcome
           of these consultations, along with the comments obtained, will significantly impact the
           finalized regulations and the manner in which tribally owned companies and Alaska
           Native Corporations and all other small disadvantaged businesses participate in the 8(a)
           Business Development Program.

           The first consultation meeting was held December 16, 2009, in Seattle, WA and the
           second will be held January 14,2010, in Albuquerque, NM. In addition to the formal
           tribal consultations, listening sessions will be held around the country for the general
           public's participation.
APPENDIX I. MANAGEMENT COMMENTS 



 Office of Government Contracting and Business Development's Response to Draft Audit
 Report

 Page 2


 Following is the Office of Government Contracting and Business Development's
 response to the recommendations outlined in this draft report.
 RECOMMENDATIONS
 Recommendation # I:

 1. 	     Revise Title 13 CFR, Part 124 to mandate that tribally-owned finns be
          unconditionally owned as required by the Small Business Act.

 Response:

 Our office will review/evaluate the public comments as well as evaluate the feedback
 received regarding the from the listening tours and tribal consultations regarding the
 proposed rule changes to determine whether or not there is a need to revise Title 13 of the
 Code of Federal Regulations, Part 124 to mandate that tribally-owned firms be
 unconditionally owned.
 Recommendation #2:
 2. 	     Revise Title 13 CFR, Part 124 to provide that a stock or other ownership interest
          that is pledged or encumbered is not unconditionally owned unless the pledge or
          encumbrance occurs within an arms-length transaction with a legitimate financial
          institution.


 Response:
 We agree that any pledge or encumbrance of an ownership interest in an 8(a) firm should
 take place only through an arm's length transaction. Currently, the 8(a) regulations
 require such transactions to follow nonnal commercial practices. The tenn "normal
 commercial practices" is used multiple times in the Federal Acquisition Regulation and is
 used by several other agencies, including the IRS and the VA, in their own regulations.
 However, if there is any ambiguity in the use ofthe term, SBA is open to seeking
 comment on changing the language of the regulation to recognize that, as SBA has
 always required previously, unconditional 8(a) ownership interests may be pledged only
 through ann's length transactions.

 We also believe that, when Congress added the unconditional ownership requirement to
 the Small Business Act, the emphasis of the change was to require that pledges of 8(a)
 interests follow normal commercial practices and be performed only through arm's
 length transactions. The "legitimate financial institution" language was oflesser
 importance.



                                               7
APPENDIX I. MANAGEMENT COMMENTS


 Office of Government Contracting and Business Development's Response to Draft Audit
 Report

 Page 3



 The legislative history shows that Congress sought to address fraud, waste, and abuse
 uncovered during the Wedtech case and investigation. Based on the experience of that
 case, we believe that Congress's primary concern was to address holes in how 8(a)
 ownership might be used for financing, not who the financier might be. Requiring that
 "normal commercial practices" be followed during 8(a) financing transactions does a
 great deal to prevent abuse. Although limiting pledges of 8(a) financing to "legitimate
 financial institutions" might curb some additional abuse, we believe it also may have a
 great detrimental effect on the ability oflegitimate 8(a) firms to find credit and grow their
 businesses. By definition, 8(a) owners are already economically disadvantaged.
 Limiting their ability to obtain credit from other than "legitimate financial institutions"
 would cut off credit sources that were previously available to the 8(a) firms, and still
 available to all other small businesses. Before instituting such a change, SBA would
 need to solicit wide public comment on the issue and study the impact that the change
 would have on the business development of 8(a) firms.


 We look forward to working with the Office of Inspector General as we continue to 

 provide the highest quality of program delivery and oversight of the 8(a) Business 

 Development (BD) Program. Since 2006, significant internal controls have been 

 implemented in an effort to continuously improve 8(a) Program delivery. 


 Sincerely,


 [FOIA ex. 6]
 Joseph G. Jordan
 Associate AdIDinistrator for
 Government Contracting
 and Business Development

 Enclosures




                                               8
